Orrick, Herrington & Sutcliffe LLP

May 13, 2021

51 WEST 52ND STREET

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543

+1 212 506 5000

Re:

McCoy v. United States, No. 20-886

New York, NY 10019-6142

orrick.com

Daniel A. Rubens

E drubens@orrick.com
D +1 212 506 3679
F +1 212 506 5151

Dear Mr. Harris,
Pursuant to this Court’s order dated March 19, 2020, petitioner respectfully requests that the
Court delay distribution of the petition for a writ of certiorari and related certiorari-stage briefing
for seven days, from May 25, 2021, until June 1, 2021.
Petitioner respectfully submits that additional time to file a reply is necessary due to difficulties
related to COVID-19, including the need to coordinate among multiple attorneys who are
working remotely. Counsel for respondent has indicated that respondent does not oppose this
request.
Sincerely,
/s/ Daniel A. Rubens
Daniel A. Rubens
Counsel for Petitioner Thelma McCoy
cc:

Elizabeth B. Prelogar, Acting Solicitor General

